APPENDIX

APPENDIX
TABLE OF CONTENTS
Scheduling Order in the State of West Virginia
(January 28, 2021)........................................................................................... App. 1
Petition to Institute Child Abuse and Neglect Proceedings in the Circuit Court
of Nicholas County, West Virginia
(November 14, 2017)........................................................................................ App. 2
Paternal Grandmother’s Motion for Placement of Infant Child in the Circuit
Court of Nicholas County, West Virginia
(July 22, 2020) ................................................................................................. App. 6
Motion to Reincorporate the Court’s Prior Findings and Motion for a Stay
Pending Appeal in the Circuit Court of Nicholas County, West Virginia
(November 10, 2020)...................................................................................... App. 20
Motion for Leave to File Notice of Appeal Out of Time and Motion to Stay
Adoption Pending Appeal in the Supreme Court of Appeals of West
Virginia
(July 22, 2020) ............................................................................................... App. 26
Order Denying Request for Hearing Transcript in the Circuit Court of
Nicholas County, West Virginia
(November 20, 2020)...................................................................................... App. 48
Order Denying Motion to Reincorporate and Motion for Stay in the Circuit
Court of Nicholas County, West Virginia
(November 13, 2020)...................................................................................... App. 50

i

STATE OF WEST VIRGINIA
At a Regular Tenn of the Supreme Court of Appeals, continued and held at Charleston,
Kanawha County, on January..28, 2021, the following order was made and entered: ·

In re J.S.
No. 20~0914

SCHEDULING ORDER
On November 19, 2020, the petitioner K.S., by counsel Christian J. Riddell, Riddell Law
Group, presented a notice of appeal from an order of the Circuit Court of Nicholas County (Case
No. 17~JA-130) entered on July 22, 2020, together with a motion to file the notice of appeal out of
time and a motion to stay adoption pending appeal. Upon consideration and review, the Court
hereby refuses the motions. Justice William R. Wooton would grant the motions. The $200 filing
fee is returned herewith. The appeal will not be docketed in this matter.

A True Copy
Attest: Isl Edythe Nash Gaiser
Clerk of Court

App. 1

IN THE CIRCUIT couRT

oFctffE~~1t:..~~~UNTv, wEsr v1Ra1NIA

'·...""'~· ·;·1°._, l.. i·.·, ,.;(.~ ".~'
'.. T\1,I •I;'IV
IN THE INTEREST OF:
·., •. :,,,,
(D.0.B. 06/04/20n?? NG\ l ~ p ): 32
Jakeir Strayhorn

Juvenile Abuse Neglect No.
17-JA-130

Adult Respondents:
Shaina Jarvis
Rashaan Strayhorn

PETITION TO INSTITUTE CHILD ABUSE AND NEGLECT PROCEEDINGS
The Department of Health and Human ResourcesJ by Jennifer Hall, petitions the Court
and alleges as follows:
The minor child is currently in the custody of the Department pursuant to a Ratification
of Emergency Custody granted by the Nicholas County Magistrate Court on November 9, 2017.
Shaina Jarvis is the biological mother of the child. Her current address is 3083 Richwood
Road, Richwood, West Virginia 26261. Rashaan Strayhorn is the biological father of the child.
His current address is 3083 Richwood Road, Richwood, West Virginia 26261.
The Department is seeking continued custody of Jakeir Strayhorn. As set forth in the
succeeding paragraphs, Petitioner believes the circumstances of the Respondents' care and
custody pose a danger to the child's wellbeing.

I.

The conduct constituting abuse/neglect pursuant to W.Va. Code§ 49-1-201 is as
follows:

A.

On or about November 9, 2017, a domestic altercation occurred between
adult respondents Shaina Jarvis and Rashaan Strayhorn while infant
respondent Jakeir Strayhorn was present with them in the home. Rashaan
Strayhorn shot Shaina Jarvis in the leg and beat her in the head with a gun
in front of the infant respondent. This conduct clearly placed the infant in
Page 1 of 4

App. 2

imminent danger of serious physical harm and, further, inflicted
emotional harm upon the infant respondent.
B.

Both adult respondents regularly argue in front of the infant respondent to
the extent that he closes his bedroom door to avoid their verbal
altercations. Despite attempting to avoid these verbal altercations by
.exiting to his bedroom, the infant respondent reports that he can still hear
yelling and "thumping." This conduct constitutes emotional abuse of the
infant respondent.

WHEREFORE, the Petitioner requests that the Court take the following actions:
Order that the child be placed in the custody of the Department of Health and Human
Resources pending further proceedings.
Authorize the Department of Health and Human Resources to give written consent for
any medical, dental, psychiatric, or psychological care required for the welfare of the child.
Authorize the Department of Health and Human Resources to arrange for and consent to
the child's participation in educational and cultural activities required for the welfare of the
child.
Appoint a guardian ad /item for the child.
Appoint counsel for the Respondents.
Determine the financial support the Respondents will be required to furnish to the child
during the time the child are in the custody of the Department of Health and Human Resources.
Schedule and conduct a hearing on this matter in accordance with the requirements of
West Virginia Code.
Page 2 of 4

App. 3

WEST VIRGINIA DEPARTMENT OF HEALTH AND
HUMAN RESOURCES
BY COUNSEL

J athan M. Calhoun, W.Va. Bar No. 11134
Assistant Prosecuting Attorney
511 Church St., Room 203
Sun1mersville, WV 26651

Page 3 of 4

App. 4

VERIFICATION
The infonnation, statements, and allegations I have made in this Petition are true and accurate to
the best of my knowledge, information and belief.

w

Date
The person named as the Petitioner made the foregoing affinnation before me on this
day of ~m'&A r
, 20..[1.

~ b z . c \1lo7P
Mycmmission expires

Page 4 of 4
App. 5

IN THE CIRCUIT .COURT OF NICHOLAS COUNTY, WEST VIRGINIA

Juvenile Abuse/Negltct No.

IN THE INT~REST OF:

JAKEIR STRAYHORN

08/04/2010

17-JA-130

ADULT RESPONDENTS:

SHAINA JARVIS
RASHAANStRAYHORN
PATERNAL GRANDMOTHER'S MOTION
FOR PLACEMENT OF INFANT' CHILD

Now cames the paternal granariiother;···i<atliry·n. .Strayhorn·: by· her counsel, ./.....
Mingo Winters, pursuant to Rule 36a of the West Virginia Rules of Procedure for Child

Abuse and Neglect Proceedings and West Virginie Co.de§ 49-4-114(8)(3), and moves
the Court to permanently place the infant child who is the subject of these proteedings,
Jakeir Strayhorn, born June 41 20101 with h1s paternal grandmother. In support cf her

motion, the paternal grandmother states the followlng:
1.

The instant action is a child abuse and neglect proceeding, instituted by

the West Virginia Department of Heal.th and Human Res·ources C'the Department")
through its Bureau for Child Protective .services ("CPS") on or about November 14,

2017. In the petition to insti.tute child abuse and negl.ect proceedings, the Department
alleged that the respondent fatheri Rashaan Strayhorn, shot the respondent mothef,
> ,.,.,_.,,

,'II.-.''""'

,.t•• '

,.,,.

_.,.A

'"•"'

• "'

• •

Shaina Jarvis, and beat her In the head with a gun on November 9, 2017. The petition

further ~lleged that the respondent father and respondent mother were regular
participants In acts of domestic violence in and around the infant child.

2.

On or before January 19, 2018, both of the respondent parent$ stipulated

to conduct that would constitute abuse or neglect of the ·infant child under West Virginia

1
App. 6

law. Each of the respondent parents was granted a post-adjudicatory improvement
period under terms established by the Court at the time .of their stipulation.
3.

On or before February 5, 2019, both parents failed to successfully

complete the post..adjudicatory improvement periods granted. by the Court. As· a result

of their failure 1 both parents' par-en1al rights to the infant child were terminated by the
Court.
4.

On December 19, 2017, the paternal grandmother filed a motion to

intervene in this action so tha.t.sh1=H~qyl1L~i .OPO,JQij!8~ fpr Jlerm~oent placement of. tha ...
infant child in the event that the parental rights of both respondent parents were
terminated. The Court has deferred ruling on the motion to intervene until such time as
a permanency hearing could be held In accordance with Rule 36a of the West Virginia
Rules of Proce·dure for Child Abuse and Neglect Proceedings.

5.

The paternal grandmother has sought placement of the lnfant child from

the beginning of these proceedings, but the Department has been unwilling to consider

the paternal grandmother as a temporary placement due to the fact that the paternal
grandmother resides In the State of New York.
6.

The paternal grandmother currently resides at 2569 7th Avenue.

Apartment 91, In New York, New York. In addition to the paternal grandmother, the
infant ·child's uncle, Darrien Strayhdrn~····'•·antrthef·'in"fil.fnr chile's ·half..-brother, Shakir
Strayhorn, age.20, also reside with the paternal grandmether.
7,

The infant child also has other relatives that live in proximity to the

paternal grandmother in New York City, including the.infant child's paternal grandfather,
Lloyd Strayhorn, and the infant child's paternal aunt, Llonice Strayhorn.
2

App. 7

8.

The paternal grandmother is presently employed by the Unified Court

System for the State of New York In the Office of Court Administration. The paternal
grandmother currently works in the Bronx Division of the Supreme Court of New York.
The paternal grandmother has been employed in the court system for the State of New
York for over fifteen years·.
9.

Neither the paternal grandmother nor any other member of her household

have ever been arrested or convicted of any crime.
10.

The Infant chi.Id Js biracial,. with ,African-Amer.lean ancestry on his father's

side. The Infant child is currently placed. in a home with white foster parents and in a
county where, according to data maintained by the United States Census Bureau, 43
out 26,233 citizens were of black or African-American descent. By contrast, 24.3% of
the over eight million residents in New York City are black or of African-American
descent. Placement of the infant child with his paternal grandmother will allow the child
to reside with members of his family in an area that Is racially diverse.
11.

West Virginia Code § 49-4-114(a)(3) provides the so-i;:alled "grandparent

preference" regarding the permanent placement of children in abuse and neglect
actions and provides, in pertinent part, the following:
"For purposes of any placement of a child for adoption by the
department, the department shall first consid~r th~ $YJ!a.~l1Jty, .and..
willingness of any knowh graiicpaferifor"gr"anc#iarents to.adept the child.
Once grandparents who are interested In adopting the child have been
identified, the department shall conduct a home study evaluation,
including home visits and lndlvldual interviews by a licensed social worker.
If the department determines, based on the home study. evaluation, that
the grandparents would be suitable adoptive parents, it shall assure that
the grandparents are offered the placement of the child prior to the
consideration of any other prospective adoptive parents."

3

App. 8

W.Va. Code§ 49-4-114(a}(3) (2014). The paternal grandmother has, at all times
since the child's removal from the respondent parents' legal custody, sought the
placement of the infc!nt child. The paternal grandmother has further sought the
conduct of a home study by the Department to demonstrate her fitness, but the
home study has not, despite the pas~age of more than a year, been completed
by the Department.
12.

It is in the best interests of the Infant child that he be placed wlth the

paternal grandmother, as required by)NiiistVirginia.Code. §. 494.,,114(a)(3).

WHEREFORE_, the paternal grandmother, Kathryn Strayhorn, prays that her
motion be granted; that the Department be ordered to forthwith complete a home study
of the paternal grandmother's home; that the child be placed with the paternal
grandmother, both temporarily and permanently; and or such other and further relief as
the Court may deem just

KATHRYN STRAYHORN
By Counsel

0
4
~
J? Ing' .
inters
~ ~

1:!:~:;:;::;at:rnal Grandmother
Virginia State Bar ID#
106 South Heber Street
Beckley, West Virginia 25801

'We~t

......,..,.,,.... ,.......... ,..,,,,.

4
App. 9

. . . . .•

0

.... ~ . · - ·

'h

,,

,MOO

'••

IN THE CIRCUIT COURT OF NICHOLAS COUNTY, WEST VIRGINIA
Juvenile Abuse/Neglect No,

IN THE INTEREST OF:
JAKEIR STRAYHORN

17..JA-130

06/04/2010

AOULT RESPONDENTS:
SHAINA JARVIS
RASHAANSTRAYHORN
CERTIFICATE OF SERVICE
I, J. Mj~g9 \Jyin,ters,

har!:lPY...O@XtlfY.Jhat..Lhave.se!;lled..a,tr-ue.and correct copy

of

the foregoing Paternal Grandmother's Motion for Placement of Infant Child upon the
following parties or their counsel by United States mail, first-class, postage prepaid, on
the

j~day of June, 2019 to the following:
Jonathan Calhoun, Esquire
Assistant Prosecuting Attorney
511 Church Street, Room 203
Summersville, West Virginia 26651
Joseph M. Mosko, Esquire
Post Office Box 606
Oak Hill, Wast Virginia 25901
Sarah Campbell, Esquire
732 Main Streat
Summersville, West Virginia 26651
Allison Taylor, Esquire
Post Office Box 89
Fayetteville, West Virginia 25840

.. ,.,-,,,,,.. h,., ........ ,,.,..

5
App. 10

·-·····

-. •'

IN THE CIRCUIT COURT OF NICHOLAS MP.:~~ffi~§~i~~WNIA

IN THE INTEREST OF:

JUVENILE ABUSE ftz,,~I;i~C'f..C~ES ~o.

JAKIERR STRAYHORN (DOB 06-04-2010)

17-JA-130

ADULT RESPONDENTS
RAHSAAN STRAYHORN
SHANIA JARVIS
ORDER DENYING MOTION FOR PLACEMENT AND ADOPTION
BY THE INFANT RESPONDENT'S PATERNAL GRANDMOTHER
This matter came before the Court on July 21, 2020 for purposes of an evidentiary hearing
on the motion of Kathryn Strayhorn (paternal grandmother) for placement and adoption of the
infant respondent, Jakierr Strayhorn (DOB 06-04-2010). The following parties appeared:
Paul Williams

Counsel for DHHR

J. Mingo Winters

Counsel for Kathryn Strayhorn, who did not appear

Allison Taylor

Guardian Ad Litem

Janet Burge

CPS Supervisor

After considering the testimony and the written motion, the Court makes the following findings
of fact and conclusions of law:
1. The intervening paternal grandmother did not appear at this hearing although she had
counsel. This hearing was set well in advance and her counsel did not offer good cause for
her failure to appear.

It is the Court's opinion that granting another delay would

unreasonably delay permanency for the child. Therefore, the Court proceeded to take
testimony.
2. Counsel for the DHHR presented the testimony of CPS Supervisor, Janet Burgh, adoptive
mother Pam Toburen and fonner CPS worker Stephanie Smith. All testimony was subject
to cross examination by counsel for the grandmother and the Guardian Ad Litem. Neither
1

App. 11

the Guardian Ad Litem nor counsel for the grandmother presented any witnesses. All
parties were provided with the right to be heard.
3. The Abuse & Neglect Petition in this case was filed November 14, 2017 alleging, among
other things, that the child's father shot the child's mother wounding her and that this took
place in the child's presence.
4. The mother's parental rights were terminated April 11, 2018.
5. The father's parental rights were terminated February 8, 2019.
6. The paternal grandmother's motion for placement was filed June 4, 2019.
7. The child has been placed with the adoptive mother, Pam Toburen, since November 7,
2017.
8. The grandmother resides in New York, New York and the adoptive mother lives in
Nicholas County, West Virginia.
9. After the grandmother's motion was filed, the DHHR initiated the process to conduct an
ICPC regarding the grandmother's home.
I 0. The Court notes that the grandmother's motion was filed eighteen months after the filing
of the petition. This caused delay because the Department is required to conduct a home
study or ICPC when a grandparent seeks placement or adoption. During the eighteenmonth period prior to her motion, the grandmother did not seek placement or visitation
with the child, although there was some phone contact with the child.
11. By September 5, 2019, the ICPC had not been completed and the Court entered an Order
continuing the matter generally awaiting the results of the ICPC. The Court notes that it is
common (and frustrating) for the ICPC process to cause delays.

2

App. 12

12. The Court received the ICPC results January 20, 2020 disapproving placement with the
paternal grandmother on grounds that the home was undergoing renovations.
13. The Court finds that there was some discussion among the parties about renewing the
request for the home study after the renovations are complete. However, the Court finds
that waiting for any renovations to be complete and then waiting for another home study
to be completed through ICPC would unreasonably delay permanency in this case.
14. Additionally, when a grandparent requests placement or adoption, West Virginia Code
§49-4-l 14(a)(3) requires the DHHR to conduct a home study, in this case through ICPC.
However, there is no requirement that a grandparent is entitled to a second home study and
the Court finds that the grandparent in this case is not entitled to a second home study and
it would unreasonably delay permanency for this child.
15. At the time of the July 21, 2020 evidentiary hearing, no evidence was presented that the
results of the ICPC had been amended or that the grandmother's home is a safe and suitable
home. Therefore, at the time of the evidentiary hearing on the grandmother's motion (July
21, 2020), the only evidence before the Court was that the home was disapproved as a
placement.
16. Kathryn Strayhorn resides in New York, New York. In her motion she alleges that neither
she nor any people who reside in her household have any criminal backgrounds and that
the home is safe and suitable, despite the ICPC stating otherwise. She also alleges as
follows:
The infant child is biracial, with African American ancestry on his
father's side. The infant child is currently placed in a home with
white foster parents and in a county where, according to data
maintained by the United States Census Bureau, 43 out of 26,233
citizens were of black or African American descent. By contrast,
24.3% of the over eight million residents in New York City are of
3

App. 13

black or African American descent. Placement of the child with his
paternal grandmother will allow the child to reside with members of
his family in an area that is racially diverse.
17. The Court asked the grandmother's counsel for a proffer of evidence if his client were
present. The arguments for placement can be summarized as follows:
a. Placement with the grandmother would be a "family" placement and family is
important.
b. The child has African American heritage and because the adoptive mother is Caucasian,
the adoptive mother cannot provide that part of the child's cultural background and
heritage to his life.
c. The grandmother is African American and is better suited to provide that cultural
element of the child's heritage because she is African American.
d. There are more African Americans in New York than in Nicholas County, West
Virginia and it would be more appropriate for the child to be raised in a more diverse
population.
18. The Court, for the reasons stated herein, finds no merit to any of the grandmother's claims.
This becomes especially true when the Court considers (1) that the child has thrived
emotionally, socially and academically while in the foster mother's home and (2) that the
child has a very strong bond with the foster mother, her family and even the community.
19. The Court notes that Jakierr Strayhorn has resided with the current foster/adoptive mother
(Pam Toburen) since November 7, 2017.
20. Ongoing CPS Supervisor Janet Burge testified as follows:
a. The grandmother has had phone contact only with the child.

4

App. 14

b. She has observed that the child has a very strong bond with the adoptive mother and
has thrived in the home. He calls her "Momma."
c. She has observed that the child has a strong bond with the adoptive mother's other (15year-old) adopted son in the home and refers to him as his brother.
d. She has observed that the child is very intelligent and mature for his age and is a
voracious reader.
e. The child has lived with the adoptive mother during the ages of 8, 9 and 10 years old
and these are very formative years.
£ The child has lived in Nicholas County almost his entire life. He participates in many

activities and he considers it home.
g. The child does not want to leave the adoptive mother and move to New York.
h. The child keeps a journal and writes. The Court notes that some of his writings were
attached to the most recent Court summary and they are also attached to this Order. In
some of these writings he is thankful for being away from his parents and he clearly
states his desire to be adopted by Pam Toburen.
21. Adoptive mother, Pam Toburen, testified as follows:
a. The child has consistently stayed with her since November 7, 2017.
b. The child is high achieving academically with exceptional intelligence. He is further
emotionally stable and very happy.
c. The child is aware of his African American heritage but never asks about it.
d. The child had scheduled phone calls with his grandmother (the intervenor) and at the
end the grandmother would recite a list of people who love him. She included his
parents whose parental rights were terminated. This made the child feel uncomfortable.

5

App. 15

The grandmother was asked to stop ending the phone calls in this manner. However,
she continued.
e. It would be emotionally harmful to remove the child from her home because he is so
smart, well-adjusted and bonded.
f.

The child has nightmares about the possibility of moving to New York and he is upset
at the thought of leaving what he considers home.

22. Former CPS worker, Stephanie Smith, testified as follows:
a. She was the ongoing CPS worker until accepting a job in the probation department.
b. The child has thrived emotionally, socially and academically while in the care of the
adoptive mother.
c. The grandmother never made any effort to visit the child although the grandmother did
appear in Nicholas County for two of her son's criminal hearings.
d. The child witnessed horrible events which lead to the termination of his parents' rights,
but he has nonetheless thrived under the care of the adoptive mother.
e. She never believed that the grandmother would be an appropriate placement for the
child.
f.

Since leaving the DHHR, she has observed the child around her own children at events
and activities around the county and he is extremely happy and has lots of friends.

g. The child stated he wanted to be adopted by Pam Toburen.
23. The Court finds that the testimony of Janet Burge, Pam Toburen and Stephanie Smith is
credible.
24. The Court notes that while the grandparent preference must be balanced with the best
interests of the child, it is the child's best interest that serves as the ultimate determinable

6

App. 16

factor in the child's placement. Further, the grandparent preference statute contemplates
that placement with grandparents is presumptively in the best interests of the child, and the
preference for grandparent placement may be overcome only where the record reviewed in
its entirety establishes that such placement is not in the best interests of the child. In Re:
J.P. No. 19-1089, Submitted: May 20, 2020, Filed: June 15, 2020.
25. Given that (I) the only evidence of the grandmother's home through the ICPC home study
is that the home was disapproved and (2) that there is clear and credible testimony that the
child is thriving and very bonded in the foster, the Court finds that placement with the
grandmother is not in the best interest of the child.
26. The DHHR is of the opinion that placement with the grandmother is not in the best interest
of the child.
27. The Guardian Ad Litem is of the opinion that placement with the grandmother is not in the
best interest of the child.
28. This Court is of the opinion that placement with the grandmother is not in the best interest
of the child.
29. The Court finds that the credible evidence weighs so heavily in favor of adoption by the
foster mother that this ruling would be the same even if the grandmother's home study was
approved through the ICPC -that is, even if the grandmother's home study was approved,
it would not be in the best interest of the child to be placed or adopted there.
30. The Court finds that removing the child from the home he has lived in since November 7,
2017 would cause irreparable emotional harm to the child and that moving him is clearly
not in his best interest.

7

App. 17

31. The grandmother's sporadic participation in this case certainly does not warrant removing
the child because he now has the happy, loving and stable home which he deserves and
enjoys.
32. Regarding the grandmother's specific arguments, the Court finds as follows:
a. The grandmother argues that placement with her would be better because it is a
placement with family.

While this may be biologically accurate, this family

relationship has been attenuated and contact has been sporadic and solely by phone. In
addition, the child was removed from the parents' home November 7, 2017 and the
grandmother did not file the motion for placement until June 4, 2019.
b. The grandmother also argues that because she is African American, she could provide
that specific African American heritage and background as a part of the child's life.
She also argues that the adoptive mother cannot provide that experience because she is
Caucasian. The Court finds that this argument is completely without merit and is
borderline offensive. Essentially, the argument is that the child should be raised in an
African American home and not a Caucasian home. The Court is of the opinion that
the child should be raised in the a safe, stable and loving home which he currently has.
c. The grandmother also cites statistics that the African American population in New
York is far greater than in Nicholas County West Virginia - concluding that the child

.

should be raised in a "more diverse" population.

The Court also finds that this

argument is also completely without merit. While it is true that the African American
population in New York is far greater than in Nicholas County West Virginia, it does
not logically follow that this child should be raised in New York for that reason. The
Court is of the opinion that the child should be raised in the safe, stable and loving

8

App. 18

home which he currently has, regardless of any disparity in African American
populations between New York and Nicholas County, West Virginia.
33. The grandmother is notified as follows:

a. You have the right to appeal this case.
b. A notice of intent to appeal must be filed within 30 days of entry of the final order in

this case.
c. The appeal must be perfected within 60 days of entry of the final order
34. It is therefore ORDERED as follows:
a. The grandmother's motion for placement and for adoption is denied.
b. This case shall proceed with the permanency plan of adoption with Pam Toburen.
c. The CLERK shall provide copies of this Order to the following:
Paul Williams
203 Courthouse Annex
Summersville, WV 26651

J. Mingo Winters
106 South Heber Street
Beckley, WV 25801

Allison Taylor
PO Box 89
Fayetteville, WV 25840

DHHR - Janet Burge
707 Professional Park Drive
Summersville, WV 26651

Enter this the

i

J#/day of

5(;~

2020.

~
9

App. 19

IN THE CIRCUIT COURT OF NICHOLAS COUNTY, WEST VIRGINIA
IN THE INTEREST OF:

ABUSE & NEGLECT

JAKEIR STRAYHORN, 06/08/10

CASE NO: 17-JA-130

ADULT RESPONDENTS:
SHAINA JARVIS
RASHAANSTRAYHON
KATHRYN STRAYHORN
Paternal Grandmother, Intervenor

MOTION TO REINCORPORATE THE COURT'S PRIOR FINDINGS AND MOTION
FOR A STAY PENDING APPEAL
Comes now the Intervenor, Kathryn Strayhorn, by counsel, Christian J. Riddell, and
moves this honorable Court for an Order reincorporating its prior findings from the July 22, 2020
Order Denying Motion for Placement and Adoption by the Infant Respondent's Paternal
Grandmother. Intervenor further requests, pursuant to Rule 50 of the West Virginia Rules of
Procedure for Abuse and Neglect, a stay of any adoption or other proceedings pending said
appeal.

In support of said Motion, Intervenor avers as follows:
1. On July 21, 2020, a final contested evidentia1y placement hearing was held regarding the
placement of the infant, J.S., pursuant to Intervenor's motion for placement and adoption.
Said Order was entered into the record on July 22, 2020.
2. At that time Intervenor was not present, but was represented by her attorney at the time,
Mr. J. Mingo Winters.

App. 20

3. Intervenor avers that Mr. Winters had informed her that there was a hearing on that day
(though he did not specify that it was the final evidentiary hearing on her motion for
placement), and that he would call her to conference her into the hearing at the
appropriate time.
4. Intervenor further states that she waited by her phone for over 3 hours, and never
received a call from Mr. Winters.
5. Subsequent to said July 21 ' 1 hearing, Intervenor Strayhorn attempted to contact Mr.
Winter's office multiple times in an attempt to obtain information about the status of her
case, to no avail.
6. Intervenor never received a return call, text, or email of any kind from her counsel
informing her that the Court had denied her motion for placement. In fact, Intervenor has
never had any contact with Mr. Winters since the day of the July 21, 2020 hearing.
7. Because Intervenor was not made aware of the Court's ruling, she had no idea that her
appeal time frame had begun to run. As such, the timeframe for appeal elapsed without
Intervenor being able to have her appeal docketed before the West Virginia Supreme
Court of Appeals.
8. Intervenor, after not hearing from her attorney, hired new counsel in October of 2020,
who diligently set out to determine the status of the case.
9. It was only through the course of undersigned's investigation that Intervenor was first
made aware of the Court's July 21, 2020 Order denying her placement of J.S.
10. It is manifestly against the interests of justice to allow Intervenor's right of appeal to be
eliminated under the circumstances elucidated above.

App. 21

11. Additionally, a stay of any adoption proceedings is warranted and necessary in this matter
because, without such a stay, the adoption of J.S. to foster parents will become a fait
accompli, and thus will amount to irreparable harm incurred by Intervenor during the
pendency of her appeal insomuch as the very act which Intervenor intends to challenge
through an appeal will have already ocurred. Additionally, in the event that Intervenor is
successful on her appeal, any nullification or other removal of an already completed
adoption will have a traumatic impact on the infant J.S.As such, good cause plainly exists
under Rule 50 for a stay in this matter, and the West Virginia Supreme Court grants such
stays in abuse and neglect matters regularly.

12. In the event the Court declines to reissue its Order Denying Motion for Placement,
Intervenor would maintain her request for a stay, as W.Va. Rule of Appellate Procedure
Rule 2 allows for the suspension of the requirements of "any of these Rules in a particular
case on application of a party. or on its own motion," upon good cause shown. Intervenor
believes that the Supreme Court is likely to consider the circumstances articulated in the
instant motion as amounting to such good cause, and, as such, may allow her appeal to be
docketed even without this Court's reissuance of its July 21st hearing Order. As such,
Intervenor would request a stay of the Court's prior Order regardless of the Court's
determination as to reincorporation of its prior Order.
WHEREFORE, for all the reasons stated above, Intervenor requests that this honorable Court
reincorporate its July 22, 2020 Order into a new Order such that the timeframe for appeal begins
anew and stay all proceedings relating to placement or adoption of the infant J.S. during the
pendency oflntervenor's appeal.

App. 22

Intervenor
By Counsel
/s/ Christian J. Riddell
CHRISTIAN J. RIDDELL, ESQUIRE
WV Bar No.: 12202
The Riddell Law Group
329 South Queen Street
Martinsburg, WV 25401
(304) 267-3949

App. 23

IN THE CIRCUIT COURT OF NICHOLAS COUNTY, WEST VIRGINIA
IN THE INTEREST OF:

ABUSE & NEGLECT

JAKEIR STRAYHORN, 06/08/10

CASE NO: 17-JA-130

ADULT RESPONDENTS:
SHAINA JARVIS
RASHAAN STRAYHON
KATHRYN STRAYHORN
Paternal Grandmother, Intervenor

CERTIFICATE OF SERVICE
I, Christian J. Riddell, legal counsel for the Intervenor Kathryn Strayhorn do hereby
certify that I have served a true and accurate copy of the attached Motion To Reincorporate The
Court's Prior Findings and Motion For A Stay Pending Appeal upon all parties of record by
filing the same with the Court via the WV EFILE system this 10th day of November, 2020.

Isl Christian J. Riddell

CHRISTIAN J. RIDDELL, ESQUIRE
WV Bar No.: 12202
The Riddell Law Group
329 South Queen Street
Martinsburg, WV 25401
(304) 267~3949

App. 24

West Virginia E-Filing Notice

CC-34-2017-JA-130
Judge: Stephen 0. Callaghan
To:

Christian Riddell
stedmanriddell@gmail.com

NOTICE OF FILING
IN THE CIRCUIT COURT OF NICHOLAS COUNTY, WEST VIRGINIA
IN THE INTEREST OF: JAKEIRR STRAYHORN
CC-34-2017-JA-130
The following motion was FILED on 11/10/2020 4:28:01 PM

Notice Date:

11/10/2020 4:28:01 PM
Debbie Facemire
CLERK OF THE CIRCUIT
Nicholas
700 Main Street, Suite 5
SUMMERSVILLE, WV 2665 I
(304) 872-7810
DeborahR.Facemire@courtswv.gov

App. 25

FIL£ COPV
IN THE SUPREME COURT OF APPEALS OF WEST VIRGINIA
DOCKETNO.

INRE:

CASE BELOW: NO: 17-JA-130

JS, Infant
S.J., Mother
R.S., Father
K. S. Paternal Grandmother, Intervenor

MOTION FOR LEAVE TO FILE NOTICE OF APPEAL OUT OF TIME AND MOTION
TO STAY ADOPTION PENDING APPEAL
Comes now the Petitioner, Katherine Strayhorn, and moves this Honorable Court,
pursuant to W.Va Rule of Appellate Procedure 2 and Rule 39(b), for an extension of time to file
her Notice of Appeal and have said appeal docketed with the Court out of time. Petitioner further
moves, pursuant to W.Va. RAP 28, for an Order staying permanency and adoption of the infant
J.S. pending appeal before the Court. In support of said Motion, Petitioner avers as follows:
1. Petitioner is the grandmother of the Infant, J .S., who attempted to obtain placement of
said infant upon the termination of parental rights for the infant's parents.
2. On July 21, 2020, a final contested evidentimy placement hearing was held regarding the
placement of Petitioner's grandson, the infant J.S., pursuant to Petitioner's motion for
placement and adoption. Said Order was entered into the record on July 22, 2020.
3. The Court's order overrode the established grandparent preference for placemep.t on the
basis that Petitioner's ICPC request with New York was denied as a result of renovations
that Petitioner was doing on her horn~ and that "waiting for any renovations to be
complete and then waiting for another home study to be completed through ICPC would
1

App. 26

umeasonably delay permanency in this case." Final Order, ,r 13. The Court also found
that "even if the grandmother's home study was approved, it would not be in the best
interest of the child to be placed or adopted there.'' Id. at,r 29.
4. At the time of said hearing, Petitioner was not present, but appeared through her counsel,
Mr. J. Mingo Winters.
5. Petitioner avers that Mr. Winters had informed her that there was a hearing on that day
(though he did not specify that it was the final evidentiary hearing on her motion for
placement), and that he would call her to conference her into the hearing at the ·
appropriate time.
6. Petitioner further states that she waited by her phone for over 3 hours, and never received
a call from Mr. Winters .
. 7. Subsequent to said July 21st hearing, Petitioner Strayhorn attempted to contact Mr.
Winter's office multiple times in an attempt to obtain information about the status of her
case, to no avail.
8. Petitioner never received a return call, text, or email of any kind from her counsel
informing her that the Court had denied her motiqn for placement. In fact, Petitioner has
never had any contact with Mr. Winters since the day oftb.e July 21, 2020 hearing.
9. Because Petitioner was not made aware of the Court's ruling, she had no idea that her
appeal time frame had begun to run. As such, the timeframe for appeal elapsed without
Petitioner being made aware of her right to appeal nor being able to have her appeal
timely docketed before the West Virginia Supreme Court of Appeals.
10. Petitioner, after not hearing from her attorney, hired undersigned counsel in October of
2020, who diligently set out to determine the status of the case.

2

App. 27

11. It was only through the course of undersigned's investigation that Petitioner was first
made aware of the Court's July 21, 2020 Order denying her placement of J.S.
12. Prior to filing the instant Motion with the Court, Petitioner first attempted to move the
Circuit Court to reincorporate its July 2020 final order into a new Order to start
Petitioner's time:frame anew, but the Circuit Court denied said motion, stating that "the
Court does not find Grandmother's explanation on why she failed to appear at the hearing
credible." See Petitioner's Exhibit A, Order Denying Motion to Reincorporate, , 26. The
Court made this finding despite the fact that there was no dispute put forth as to the fact
that Petitioner had not been contacted or informed by Mr. Winters of the Court's ruling.
13. Rule 2 of the West Virginia Rules of Appellate Procedure provides that "in the interest of
expediting decision, or for other good cause shown, the Supreme Court may suspend the
requirements or provisions of any of these Rules in a particular case on application of a
party or on its own motion and may order proceedings in accordance with its direction.
These Rules shall be construed to allow the Supreme Court to do substantial justice."
Rule 39(b) provides that "The Court for good cause shown may upon motion enlarge the
time prescribed by these rules or by its order for doing any act, or may permit an act to be
done after the expiration of such time."
14. It is manifestly against the interests of justice to allow Petitioner's right of appeal to be
eliminated under the circumstances elucidated above. She never had notice of the Court's
:final decision despite her diligent efforts to make contact with her prior counsel, and, as
such, she has not had an opportunity for meaningful due process regarding her appeal
rights. As such, extending the time frame to file her Notice of Appeal is warranted under
the circumstances and in the interests of substantial justice.

3

App. 28

1S. Rule 28(b) provides that, should the Circuit Court refuse to grant a stay, a Petitioner
apply to the Supreme Court for such stay.
16. A stay of any adoption proceedings is warranted and necessary in this matter because,

without such a stay, the adoption of J.S. to foster parents will become a fait accompli, and
thus will amount to irreparable harm incurred by both Petitioner and J.S. during the
pendency of her appeal insomuch as the very act which Petitioner intends to challenge
and forestall through said appeal will have already occurred Additionally, in the event
that Petitioner is successful on her appeal, any nullification or other removal of an
already completed adoption will have a traumatic impact on the infant J.S .. As such, good
cause plainly exists under Rule 28 for a stay in this matter.

17. Petitioner, having now submitted to the Court its perfected appeal concomitant with the
instant motion, has laid out the basis for its appeal and assignments of error, and believes
that said perfected appeal provides clear and obvious grounds for success on the merits of
the appeal, and thereby warrants a stay of any adoption proceedings in the underlying
case.
WHEREFORE, for all the reasons stated above, Petitioner respectfully requests that this
Honorable Court Grant Petitioner's motion to extend the timeframe for filing her appeal and to
stay adoption proceedings below for the duration of Petitioner's pending appeal.
Respectfully,
Petitioner

4

App. 29

IN THE SUPREME COURT OF APPEALS OF WEST VIRGINIA
DOCKETNO.

INRE:
CASE BELOW: NO: 17-JA-130

JS, Infant
S.J., Mother
R.S., Father
K. S. Paternal Grandmother, Intervenor

CERTIFICATE OF SERVICE
I, Christian J. Riddell, Esq., attorney for the Petitioner, do swear that a copy of the
foregoing "Motion For Leave To File Notice of Appeal Out of Time and Motion To Stay
Adoption Pending Appeal" in this matter was served upon counsel for the Respondents by
United States Postal Service, postage pre-paid, this 17th day of November, 2020 to Paul
Williams, Esq. 203 Courthouse Annex, 511 Church Street, Summersville, WV 26651, Allison

,,

9 Fayettev1lle, WV 25840.

'
Clifistian J. Riddell
(WV Bar #12202
The Riddell Law Group
329 S. Queen Street
Martinsburg, WV 25401
(P): 304-267-3949
(F) 304-267-5411
Email: stedmanriddell@gmail.com

6

App. 30

C stian J. Riddell (WV State Bar #12202)
The Riddell Law Group
329 S. Queen Street Martinsburg, WV 25401
. (P): 304-267-3949
(F) 304-267-5411
Email: stedmanriddell@gmail.com

5

App. 31

FILE COPV
SUPREME COURT OF APPEALS-OF WEST VIRGIN1A
NOTICE OF APPEAL
Use this form only for an appeal from a final judgment of a Circuit Court.
ATTACH COP[ES OF ALL ORDERS BElNG APPEALED

1.- COMPLETE CASE TITLE AND CASE NUMBERS IN CIRCUIT COURT
·(Include all party designations, such as plaintiff, inter,,enor, etc. Use an extra sheet if necessary.)

In Re: JS, infant

17~JA~l30

· Rahsaan Strayhorn, Father, Adult Respondent
Shania Jarvis, Mother, Adult Respondent

2. COUNTY APPEALED FROM AND NAME OF JUDGE(S) WHO ISSUED DECISION(S)
(If the presiding judge was appointed by special assignment, include an explanation ot'the circumstances on an
extra sheet)

Nicholas County
-Judge Stephen 0. Callaghan
3. PETITIONER(S) (List all parties who join in the petition for appeal and provide the name, firm name,
address, phone number, and e-mail address of counsel of record for each party. Self-represented parties must
provide an address and telephone number.)

Kathryn Strayhorn, Intervenor by Christian J. Riddell, Esquire, Riddell Law Group, 329 South Queen Street,
Martinsburg,_WV 25401; 304~267-3949; stedmanriddell@gmail.com

4. RESPONDENT(S) (List all parties against whom the appeal is taken and provide the name, firm name,
address, phone number, and e-mail address of counsel of record for each party. Self-represented parties must
provide an address and telephone number.)
Paul Williams, Assistant Prosecuting Attorney, 203 Courthouse Annex, Summersville, WV 2665 I; 304~872-7870;

nicholascountyprivate@gmail.com
Allison Taylor, Esquire, Allison Taylor Law, PO Box 89, Fayetteville, WV 25840; 304-574-3994;
allisontaylorlaw@gmail.com
5, NON-PARTICIPANT(S) (List any parties to the lower court action that will not be involved in the appeal and
provide the name, firm name, address, telephone number and e-mail address of counsel of record for each nonparticipant Provide the name, address and telephone number of any self-represented litigant who was a party
to the lower court action but is not participating in the appeal.)

n/a

Supreme Court of Appeals of West Virginia- Notice of Appeal; Rev. 01/01/2016

App. 32

Page 1 ofS

· SHORT CASE NAME: In Re: JS, infant

-----'----------------------------

6, Date of Entry of Judgment:

07 / 22 I

2020

Date of Entry of Judgment on Post-Trial Motions, if any:
(1)

I
I
---------

(2)

I
- - -I - - ---

7. CRIMINAL CASES:

(3)

I
- - -I - - ---

-----------------

Bail Status: n/a

Defendant's Sentence:
n/a

8. ABUSE AND NEGLECT CASES: On an extra sheet, provide a list of the names, ages, and parent's names of all
minor children, a brief description of the current status of the parental rights of each parent as of the filing of the
· notice of appeal, a description of the proposed permanent placement of each child, and the name of each guardian ad
litem appointed in the case.

9. Is the order or judgment appealed a final decision on the merits as to all issues and all parties?
If your answer is no, was the order m·judgmententered pursuant to R. Civ, P, 54(b)?

[ll YES ID NO
DYES/ ONO

If your answer is no, you must attach a brief explanation as to why the order or judgment being appealed is proper
for the Court to consider.

D YES/ It] NO

10. Has this case previously been appealed?

If yes, provide the case name, docket number and disposition of each prior appeal.
11. Are th.ere any related cases currently pending in the Supreme Court or in a lower tribunal?

D YES / [t] NO

If yes, cite the case, provide the status, and provide a description of how it is related.
12. Is any part of the case confidential?

IZI YES/ D NO

If yes, identify which part an~ provide s~~cific authority for confidentiality.

~ e':) 1

o. 1\ of ,t

et s

1}·

pc (tCAln s -1-o

1

• (

ei:bu.x ~ 1Jt0li0r

13. If an appealing party is a corporation, an extra sheet must list the names of parent corporations and the name of any
public company that owns ten percent or more of the corporation's stock. If this section is not applicable to the
appealing party, please so indicate below.

D The corporation who is a party to this appeal does not have a parent corporation and no publicly held company
owns ten percent or more of the corporation's stock.

Supreme Court of Appeals of West Virginia· Notice of Appeal; Rev. 01/01/2016

App. 33

Page 2 ofS

SHORT CASE NAME: In Re: ,JS, infant

17-.JA-130
---------------------------------

14. Do you know of any reason why one or more of1he Supreme Court Justices should be disqualified from this case?

D YES/ 11] NO

If yes, set forth the basis on an extra sheet. Providing the information required in this section
does not relieve a party from the obligation to file a motion for disqualification in accordance

with Rule 33.
15. Is a transcript of proceedings necessary for the Court to fairly consider the assignments of error in the case?

.ll] YES/

D NO

ff yes, you must complete the appcUate transcript request on page 4 of this form.

16. NATURE OF CASE, RELIEF SOUGHT, and OUTCOME BELOW
· (Limit to two double-spaced pages; please attach.)
17. ASSIGNMENTS OF ERROR
Express the assignments in the terms and circumstances of the case, hut without unnecessary detail. Separately
number each assignment of error and for each assignment:
(1) state the issue;

(2) provide a succinct statement as to why the Court should review the issue.

Limit to eight pages double-spaced; please attach.
18. ATTACHMENTS

Attach to this notice of appeal the following documents in order:
(I) extra sheets containing supplemental information in response to sections I - 14 of this form;

(2) a double-spaced.statement of the nature of the case, not to exceed two pages, as material required by

section 16 of this form; .
(3) a double-spaced statement of the assignments of error not to exceed eight pages as required by section 17
of this form;
(4) a copy of the lower court's decision or order from which you are appealing;
(5) a copy of any order deciding a timely post-trial motion; and

(6) a copy of any order extending the time period for appeal.
(7) the statutory docket fee of$200; or a copy of the lower court's granting of the application for fee waiver in

this case. The statutory docket fee does not apply to criminal cases, appeals from the Worker's Compensation
Board of Review or original jurisdiction actions.
NOTICE:

You must file a separate affidavit and application anytime your financial situation no longer meets the official
guidelines or anytime the court orders you to do so.

Supreme Court of Appeals of West Virginia- Notice of Appeal; Rev.App.
01/01/2016
34

Page 3 ofS

CERTIFICATlONS
STATE OF WEST VIRG[NIA

I hereby certify that I have performed a review of the case that is reasonable under the circumstances and that the
contents of the Notice of Appeal are accurate and complete. / / ' / / /
/

/ J

Date

1

11 1 3'02-0

_ _Ill/
________
Counsel of record or unrepresented party

I hereby certify that on or before the date below, copies of this notice of appeal and attachments were served on

all parties to the case, and copies were provided to the clerk of the circuit court from which the appeal is taken and to each
court reporter from whom a transcript is requested

1I , (7 , (ho')[)
Date

Counsel of record or unrepresented party

Supreme Court of Appeals of West Virginia - Notice of Appeal; Rev.App.
01/01/2016
35

Page4of5

. SHORT CASE NAME:

-----------------------------SUPREME COURT OF APPEALS OF WEST VIRGINIA
APPELLATE TRANSCRIPT REQUEST FORM

INSTRUCTIONS
(1) If a transcript is necessary for your appeal, you ~ complete 1his fomt and make appropriate financial arrangements
wiili each court reporter from whom a transcript is requested.
(2) Specify each portion of ilie proceedings tli.at must be transcribed for purposes of appeal. See Rule of Appellate
Procedure 9(a).
·
(3) A separate request fonn must be completed for each court reporter from whom a transcript is requested. If you are
unsure of the court reporter(s) involved, contact the circuit clerk's office for that information.
(4) Failure to make timely and satisfactory arrangements for transcript production, including necessary financial
arrangements, may result in denial of motions for extension of the appeal period, or may result in dismissal of the
appeal for failure to prosecute.

S ~ (r\]_ \.J Qung
(DCA-1n___._;. . . .~...,__..;_e--fl-f--=5-l--"u..=.d-i·--5-5-U_IYl_m,e
__
rS_1J_i_(l.e-~-W-Ji_ui.J_ 5 I

Name of Court Reporter, ERO, or Typist:
Address of Court Reporter: ··1 DO
.
Civil Action No.:
)
130

r-i ,. Jr\- -

Dat~ of Final Order:

1 / {A {h t

· Date of Proceeding

Type of Proceeding

'J

I r.).. / I )..O Jl
I
I
- I
I
I
I
I

I

I

I
I
I
I

I
I
I

J
I
j
County: _ _ _ _ _ _ _ _ _ _ _ _ _ __

~0 'UJ

£v;df.nt1·a. rL/ I-kt'.
I

Length of Proceeding

.

Name of Judge(s)

0udo.t
eOt llei~ha n
a
u

nnei

)

Portions Previously
Prepared

CERTIFICATIONS

I hereby certify that the transcripts requested herein are necessary for a fair consideration of the issues set forth in
the Notice ofAppeal.
I

I hereby further certify that I have contacted the court reporter and satisfactory financial arrangements for

payment of the transcript have been made as follows:
......J

/

Private funds. (Deposit of$_

enclosed with court reporter's copy.)

D Criminal appeal with fee waiver (Attach order appointing counsel or order stating defendant is eligible.)
O Abuse & neglect or delinquency appeal with fee waiver (Attach order appointing counsel.)
D Advance payment waived by court reporter (Attach docume tatio ,)

t f - / 1-- :)O :)f)

Date mailed to court reporter

Co

Supreme Court of Appeals of West Virginia ~ Appellate Transcript Request
App. Fonn;
36 Rev. 01/01/2016

Page 5 of5

SUPREME COURT OF APPEALS OF WEST VIRGINIA
NOTICE OF APPEAL- EXTRA SHEET
SHORT CASE NAME:

In Re: JS, infant

17-JA-130

LOWER COURT CASE NO:

This is a response to SECTION 8:

ABUSE AND NEGLECT CASES (Provide a list of the names, ages, and

parent's names of all minor children, a brief description of the current status of the parental rights ofeach parent
as of the filing of the notice of appeal, a description of the proposed permanent placement of each child, and the
name of each guardian ad litem appointed in the case.)

JS, infant. age 10 yrs. old

RS, father; parental rights terminated
SJ, mother; parental rights tenninated

Proposed placement is adoption

GAL is Allison Taylor

D

Check here if the section above is continued on the next page.

Supreme Court of Appeals of West Virginia - Notice of Appeal- Edra Sheet
Rev, 11/2010
App. 37

Page 1 of 1

16. Nature of Case, Relief Sought, Outcome Below

This appeal pertains to the decision by the Nicholas County Circuit Court to deny
placement to paternal grandmother of the infant, J.S., following the Court's termination of J.S.'s
parents' parental rights.
On July 21, 2020, a final contested hearing was held on Petitioner's Motion for
Placement wherein the Court chose to disregard the established preference under West Virginia
law for grandparent placement in favor of granting permanency to J.S.'s foster family, relying
primarily on the fact that J.S. had formed a bond with his foster family that should not be
disturbed There was no finding of unfitness levied against Petitioner.
\Vherefore, Petitioner files the instant notice of appeal and requests th.at this Honorable
Court reverse the decision of the Nicholas County Circuit Court and grant Petj_tioner's Motion
for Placement.

App. 38

17. Assignments of Error

1. The Circuit Court erred in denying Petitioner's Motion for Placement of J.S.

2. The Circuit Court erred by overriding the state preference for grandparent placement
under the circumstances of the case.

App. 39

IN THE CIRCUIT COURT OF NICHOLAS ~P.:fflffi~~~~<ppUA
IN THE INTEREST OF:

JUVENILE ABUSE ~ZtnJl!Elj~'+C~S~O.
17-JA-130

JAKIERR STRAYHORN (DOB 06-04-2010)
ADULT RESPONDENTS

RAHSAAN STRAYHORN

SHANIA JARVIS

ORDER DENYING MOTION FOR PLACEMENT AND ADOPTION
BY THE INFANT RESPONDENT'S PATERNAL GRANDMOTHER
This matter came before the Court on July 21, 2020 for purposes of an evidentiary hearing

on the motion of Kathcyn Strayhorn (paternal grandmother) for placement and adoption of the

.

'
'

infant respondent, Jalcierr Strayhorn (DOB 06-04-2010). The following parties appeared:

Paul Williams

Counsel for DHHR

J. Mingo Winters

Counsel for Kathryn Strayhorn, who did not appear

Allison Taylor

Guardian Ad Litem

Janet Burge

CPS Supervisor

After considering the testimony and the written motion, the Court makes the following findings
of fact and conclusions of law:
l. The intervening paternal grandmother did not appear. at this hearing although she had
counsel. This hearing was set well in advance and her counsel did not offer good cause for
her failure to appear.

It is the Court's opinion that granting another delay would

unreasonably delay permanency for the child. Therefore, the Court proceeded to take
testimony.
2. Counsel for the DHHR presented the testimony of CPS Supervisor, Janet Burgh, adoptive
mother Pam Toburen and former CPS worker Stephanie Smith. All testimony was subject
to cross examination by counsel for the grandmother and the Guardian Ad Litem. Neither
1

App. 40

·'..

the Guardi~ Ad Litem nor counsel for the grandmother presented any witnesses. All
parties were provided with the right to be heard.
3. The Abuse & Neglect Petition in this case was filed November 14, 2017 alleging, among
other things, that the child's father shot the child's mother wounding her and that this took

...

place in the child's presence.
4. The mother's parental rights were terminated April 11, 2018.
5. The father's parental rights were terminated February 8, 2019.
6. The paternal grandmother's motion for placement was filed June 4, 2019.
7. The child has been placed with the adoptive mother, Pam Toburen, since November 7,
,

2017.

;:

8. The grandmother resides in New York, New York and the adoptive mother lives in

Nicholas County) West Vrrginia.
9. After the grandmother's motion was filed, the DHHR initiated the process to conduct an
ICPC regarding the grandmother's home.
10. The Court notes that the grandmother's motion was filed eighteen months after the filing
of the petition. This caused delay because the Department is required to conduct a home
study or ICPC when a grandparent seeks placement or adoption. During the eighteenmonth period prior to her motion, the grandmother did not seek placement or visitation
with the child, although there was some phone contact with the child.
11. By September 5, 2019, the ICPC had not been completed and the Court entered an Order
continuing the matter generally awaiting the results of the ICPC. The Court notes that it is
common (and frustrating) for the ICPC process to cause delays.

2

App. 41

12. The Court received the ICPC results January 20, 2020 disapproving placement with the
paternal grandmother on grounds that the home was undergoing renovations.
13. The Court finds that there was some discussion among the parties about renewing the
request for the home study after the renovations are complete. However, the Court finds
that waiting for any renovations to be complete and then waiting for another home study
to be completed through ICPC would unreasonably delay permanency in this case.
14. Additionally, when a grandparent requests placement or adoption, West Virginia Code
§49-4-114(a)(3) requires the DHHR to conduct a home study, in this case through ICPC.
However, there is no requirement that a grandparent is entitled to a second home study and
the Court finds that the grandparent in this case is not entitled to a second home study and
it would unreasonably delay permanency for this child.

-·

<

15. At the time of the July 21, 2020 evidentiary hearing, no evidence was presented that the
results of the ICPC had been amended or that the grandmother's home is a safe and suitable
home. Therefore, at the time of the evidentiary hearing on the grandmother's motion (July
21, 2020), the only evidence before the Court was that the home was disapproved as a

~-.

placement.
-16. Kathryn Strayhorn resides in New York, New York. In her motion she alleges that neither
she nor any people who reside in her household have any criminal backgrounds and that
i:

the home is safe and suitable, despite the ICPC stating otherwise. She also alleges as
follows:
The infant child is biracial, with African American ancestry on his
father's side. The infant child is currently placed in a home with
white foster parents and in a county where, according to data
maintained by the United States Census Bureau, 43 out of 26,233
citizens were of black or African American descent. By contrast,
24.3 % of the over eight million residents in New York City are of
3

App. 42

black or African American descent. Placement of the child with his
paternal grandmother will allow the child to reside with members of
his family in an area that is racially diverse.
_ 17. The Court asked the grandmother's counsel for a proffer of evidence if his client were
present. The arguments for placement can be summarized as follows:
a. Placement with the grandmother would be a "family" placement and fami]y is

~.

important.
b. The child has African American heritage and because the adoptive mother is Caucasian,
the adoptive mother cannot provide that part of the child's cultural background and
heritage to his life.
. c. The grandmother is African American and is better suited to provide that cultural
element of the child's heritage because she is African American.
d. There are more African Americans in New York than in Nicholas County, West
Virginia and it would be more appropriate for the child to be raised in a more diverse
population.
18. The Court, for the reasons stated herein, finds no merit to any of the grandmother's claims.
This becomes especially true when the Court considers (1) that the child has thrived
emotionally, socially and academically while in the foster mother's home and (2) that the

..

•,.
"·

child has a very strong bond with the foster mother, her family and even the community.
19. The Court notes that Jakierr Strayhorn has resided with the current foster/adoptive mother
(Pam Toburen) since November 7, 2017.
20. Ongoing CPS Supervisor Janet Burge testified as follows:
a. The grandmother has had phone contact only with the child.

.,
(

f

..
,.
4

App. 43

\

b
. Sh
eh
a
sob
s
e
rv
edth
a
tth
ech
i
ldh
a
sav
e
rys
t
rongbondw
i
thth
eadop
t
iv
emo
th
e
ra
n
d
h
a
sth
r
iv
edinth
e
hom
e
.H
ec
a
l
l
sh
e
r"Momm
a
.
"

'·
\

c
. Sh
eh
a
sob
s
e
rv
edth
a
t
th
ech
i
ldh
a
sas
t
rongbondw
i
thth
eadop
t
iv
emo
th
e
r
'
so
th
e
r(1S
·
y
e
a
r
•o
ld
)adop
t
edsonin
th
ehom
eandr
e
f
e
r
st
oh
ima
sh
i
sb
ro
th
e
r
.
d
. Sh
eh
a
sob
s
e
rv
edth
a
tth
ech
i
ldi
sv
e
ryin
t
e
l
l
ig
en
tandm
a
tu
r
e fo
rh
i
sag
eand
.i
sa
vo
r
a
c
iou
sr
e
ad
e
r
.
e
. Th
ech
i
ldh
a
sl
iv
edw
i
thth
eadop
t
iv
emo
th
e
r du
r
ingth
eag
e
so
f8
,9and1
0y
e
a
r
so
l
d
andth
e
s
ea
r
ev
e
ryfo
rm
a
t
iv
ey
e
a
r
s
.

f
. Th
ech
i
ldh
a
sl
iv
edinN
i
cho
l
a
s Coun
tya
lmo
s
th
i
sen
t
i
r
el
i
f
e
.H
ep
a
r
t
i
c
ip
a
t
e
sinm
any
a
c
t
iv
i
t
i
e
sandh
econ
s
id
e
r
si
thom
e
.

:
.
f
!

'

'
.~
~~

g
. Th
ech
i
lddo
e
sno
tw
an
ttol
e
av
eth
eadop
t
iv
emo
th
e
randmov
et
oN
ewYo
rk
.

,
;

~·

;

h
. Th
ech
i
ldk
e
ep
sajou
rn
a
la
n
dw
r
i
t
e
s
. Th
eCou
r
tno
t
e
sth
a
tsom
eo
fh
i
sw
r
i
t
ing
sw
e
r
e

n
a
t
t
a
ch
edtoth
e
mo
s
tr
e
c
en
tCou
r
tsumm
a
ryandth
eya
r
ea
l
soa
t
t
a
ch
edt
oth
i
sO
r
d
e
r
.I
som
eo
fth
e
s
ew
r
i
t
ing
sh
ei
sth
ank
fu
lfo
rb
e
ingaw
ayf
romh
i
sp
a
r
en
t
sandh
ec
l
e
a
r
ly
i
,
sd
e
s
i
r
et
ob
eadop
t
edb
yP
amTobu
r
en
.
s
t
a
t
e
sh

r
'

21
.Adop
t
iv
emo
th
e
r
,P
amTobu
r
en
,t
e
s
t
i
f
i
eda
sfo
l
low
s
:

a
. Thech
i
ldh
a
scon
s
i
s
t
en
t
lys
t
ay
edw
i
thh
e
rs
in
c
eNov
emb
e
r7
,2017
.
b
. Th
ech
i
ldi
sh
igha
ch
i
ev
inga
c
ad
em
i
c
a
l
lyw
i
thex
c
ep
t
ion
a
lin
t
e
l
l
ig
en
c
e
.H
ei
sfu
r
th
e
r
emo
t
ion
a
l
lys
t
ab
l
eandv
e
ryh
appy
.
c
. Th
ech
i
ldi
saw
a
r
eo
fb
i
sA
f
r
i
c
anAm
e
r
i
c
anh
e
r
i
t
ag
ebu
tn
ev
e
ra
sk
sabou
ti
t
.
d
. Th
ech
i
ldh
ads
ch
edu
l
edphon
ec
a
l
l
sw
i
thh
i
sg
r
andmo
th
e
r(
th
ein
t
e
rv
eno
r
)anda
tth
e
fp
eop
l
ewho lov
eh
im
. Sh
ein
c
lud
edh
i
s
endth
eg
r
andmo
th
e
rwou
ld r
e
c
i
t
eal
i
s
to
p
a
r
en
t
swho
s
ep
a
r
en
t
a
lr
igh
t
sw
e
r
et
e
rm
in
a
t
ed
.Th
i
sm
ad
eth
e
ch
i
ldf
e
e
lun
com
fo
r
t
ab
l
e
.

5

App
.44

..

,
.•

,

·:

The grandmother was asked to stop ending the phone calls in this manner. However,
she continued.
e. It would be emotionally hannful to remove the child from her home because he is so
smart, well-adjusted and bonded.
f. The child has nightmares about the possibility of moving to New York and he is upset
at the thought of leaving what he considers home.
22. Fonner CPS worker, Stephanie Smith, testified as follows:
a. She was the ongoing CPS worker until accepting a job in the probation department.
b. The child has thrived emotionally, socially and academically while in the care of the
,:

.-

adoptive mother.

f.-.-

c. The grandmother never made any effort to visit the child although the grandmother did
appear in Nicholas County for two of her son's criminal hearings.
d. The child witnessed horrible events which lead to the tennination of his parents' rights,

but be has nonetheless thrived under the care of the adoptive mother.
e. She never believed that the grandmother would be an appropriate placement for the

child.
f.

Since leaving the DirnR, she has observed the child around her own children at events
and activities around the county and he is extremely happy and has lots of friends.

g. The child stated he wanted to be adopted by Pam Toburen.
23. The Court finds that the testimony of Janet Burge, Pam Toburen and Stephanie Smith is
credible.
24. The Court notes that while the grandparent preference must be balanced with the best
interests of the child, it is the child's best interest that serves as the ultimate detenninable

6

App. 45

-.

•'

:.:.

.

r

31. The grandmother's sporadic participation in this case certainly does not warrant removing
the child because he now has the happy, loving and stable home which he deserves and
enjoys.

;

32. Regarding the grandmother's specific arguments, the Court finds as follows:

•.

a. The grandmother argues that placement with her would be better because it is a
placement with family.

While this may be biologically accurate, this family

relationship has been attenuated and contact has been sporadic and solely by phone. In
addition, the child was removed from the parents' home November 7, 2017 and the

..
~

;-

grandmother did not file the motion for placement witil June 4, 2019.
b. The grandmother also argues that because she is African American, she could provide
that specific African American heritage and background as a part of the child's life.

:.,

f

:~..

~.

;:_:

She also argues that the adoptive mother cannot provide that experience because she is
Caucasian. The Court finds that this argument is completely without merit and is
borderline offensive. Essentially, the argument is that the child should be raised in an
African American home and not a Caucasian home. The Court is of the opinion that
the child should be raised in the a safe, stable and loving home which he currently has.

-··

::.

''

c. The grandmother also cites statistics that the African American population in New
York is far greater than in Nicholas County West Virginia - concluding that the child
should be raised in a "more diverse'' population.

·-'

The Court also fmds that this

argument is also completely without merit. While it is true that the African American
population in New York is far greater than in Nicholas County West Virginia, it does
not logically follow that this child should be raised in New York for that reason. The
Court is of the opinion that the child should be raised in the safe, stable and loving

8

App. 46

,·
'·

r·

home which he currently has, regardless of any disparity in African Ameri~an
populations between New York and Nicholas County, West Virginia..
33. The grandmother is notified as follows:
a. You have the right to appeal this case.
b. A notice of intent to appeal must be filed within 30 days of entry of the final order in
this case.
c. The appeal must be perfected within 60 days of entry of the final order

..,.

-r'

34. It is therefore ORDERED as follows:

..

a. The grandmother's motion for placement and for adoption is denied.

b. This case shall proceed with the permanency plan of ~µoption with Pam Toburen.
c. The CLERK shall provide copies of this Order to the following:
Paul Williams
203 Courthouse Annex
Summersville, WV 26651

J. Mingo Winters
106 South Heber Street
Beckley, WV 25801

Allison Taylor
P0Box89
Fayetteville, ..WV 25840

DHHR - Janet Burge
707 Professional Park Drive
Summersville, WV 26651

Enter this the

_;,

"

;v1/
Z.

day of

'

·..

9

App. 47

In the Circuit Court of Nicholas County, West Virginia
IN THE INTEREST OF:
JAKEIRR STRAYHORN
Adult Respondent(s}:

6/4/2010

Case No. CC-34-2017-JA-130

NIA

ORDER DENYING REQUEST FOR HEARING TRANSCRIPT
On November 17, 2020 the Court received a Supreme Court of Appeals of West
Virginia Appellate Transcript Request Form in the above referenced matter. Upon
review of the record, the Court has determined that the individual seeking the
evidentiary hearing transcript was never a party in this matter and thus, is not entitled to
a copy of the hearing transcript.
Accordingly, it is the ORDER of this Court that the request for the July 21, 2020
Evidentiary Hearing transcript is hereby DENIED.

Isl Stephen 0. Callaghan
Circuit Court Judge
28th Judicial Circuit

Note: The electronic signature on this order can be verified using the reference code that appears in the
upper-left corner of the first page. Visit www.courtswv.gov/e-file/ for more details.

App. 48

West Virginia E-Filing Notice

CC-34-2017-JA-130
Judge: Stephen 0. Callaghan

To:

Christian John Riddell
stedmanriddell@gmail.com

NOTICE OF FILING
IN THE CIRCUIT COURT OF NICHOLAS COUNTY, WEST VIRGINIA
IN THE INTEREST OF: JAKEIRR STRAYHORN
CC-34-2017-JA-130
The following order - case was FILED on 11/20/2020 12:35:52 PM

Notice Date:

11/20/2020 12:35:52 PM
Debbie Facemire
CLERK OF THE CIRCUIT
Nicholas
700 Main Street, Suite 5
SUMMERSVILLE, WV 26651

(304) 872-7810
DeborahR.Facemire@courtswv.gov

App. 49

In the Circuit Court of Nicholas County, West Virginia
IN THE INTEREST OF:
JAKEIRR STRAYHORN

6/4/2010

Case No. CC-34-2017-JA-130

NIA

Adult Respondent(s):

Order Denying Motion to Reincorporate and Motion for Stay
Pending before the Court is Intervenor, Kathryn Strayhom's, Motion to Reincorporate the
Court's Prior Findings and Motion for a Stay Pending Appeal. Essentially, the intervenor seeks
to have this Court re-enter its Order of July 22, 2020 so that her appeal deadlines would start
anew.

This Court declines.

Upon review of the record in its entirety, the current pending

motions, and after taking into consideration the best interests of the child, Jakierr Strayhorn, the
Court DENIES the pending motions and makes the following findings of fact and conclusions of
law:
1.

The original Petition in this matter alleging abuse and neglect was filed November
14, 2017.

2.

On April 11, 2018, the mother's parental rights were tenninated.

3.

On February 8, 2019, the father's parental rights were tenninated.

4.

The paternal grandmother and Intervenor (hereinafter, Grandmother), Kathryn
Strahom's, motion for placement was filed June 4, 2019.

5.

The child has been placed with the adoptive mother, Pam Toburen, smce
November 7, 2017.

6.

After the Grandmother's previously denied motion for placement was filed, the
DHHR initiated the process to conduct an ICPC regarding the grandmother's
house.

7.

The Grandmother's motion was filed eighteen months after the filing of the

App. 50

petition. This caused delay because the Department is required to conduct a home
study or ICPC when a grandparent seeks placement or adoption. During this time,
the grandmother did not seek placement or visitation with the child, although there
were some phone contacts with the child.
8.

By September 5, 2019, the ICPC had not been completed and the Court entered an
Order continuing the matter generally awaiting the results of the ICPC.

9.

On January 20, 2020, the Court received the ICPC results disapproving placement
with the Grandmother on the grounds that the home was undergoing renovations.

10.

On July 21, 2020 an evidentiary hearing on the Grandmother's motion for
placement and adoption of the child, Jakierr Strayhorn.

11.

The Grandmother did not appear at this hearing although she had counsel. This
hearing was set well in advance and her counsel did not offer good cause for her
failure to appear.

12.

For the reasons stated in the July 22, 2020 Order Denying Motion for Placement
and Adoption by the Infant Respondent's Paternal Grandmother, the Court
determined that placement with the Grandmother was not in the best interest of the
child, and that removing him from the home he has lived in since November 7,
201 7 would cause irreparable and emotional harm to the child.

13.

In that Order the Court noted that "the grandmother's sporadic participation in this
case certainly does not warrant removing the child because he now has a happy,
loving and stable home which he deserves and enjoys.

14.

The July 22, 2020 Order also notified the grandmother of her appeal rights and no
notice if intent to appeal was filed and no petition for appeal has been filed.
Further, the deadlines for the notice if intent to appeal and petition for appeal have
expired by the time of the Grandmother's motion herein.

App. 51

15.

On October 22, 2020 (well past the deadlines to file a notice of intent to appeal
and petition for appeal) a Notice of Appearance was filed by Christian J. Riddell,
on behalf of the Grandmother.

16.

Later, on November 10, 2020 the Court received the Grandmother's Motion to
Reincorporate the Court's Prior Findings and Motion for a Stay Pending Appeal.

17.

In her motion, the Grandmother states that the reason she did not attend the July
22, 2020 hearing was because her former counsel, Mingo J. Winters, advised her
that he would call her to conference her into the hearing at the appropriate time.
The Grandmother further states that she waited by the telephone for three hours
waiting for her counsel's telephone call.

18.

The Grandmother states that because her counsel did not return her calls, texts or
emails, she was not aware of the Court's ruling and had no idea that her appeal
time frame had begun to run.

19.

The Grandmother first moves the Court to for an Order reincorporating its prior
findings from the July 22, 2020 Order Denying Motion for Placement and
Adoption by the Infant Respondent's Paternal Grandmother.

20.

The Grandmother offers no authority for this Court to re~enter its prior Order so
that the appeal deadlines would start anew.

21.

In support of this motion, the Grandmother argues that "it is manifestly against the
interests of justice to allow Intervenor's right of appeal to be eliminated under the
circumstances elucidated above."

22.

On the contrary, this Court finds that it is manifestly against the interests of justice
to grant the Grandmother's motion and further delay permanency for this child.

23.

The Court does not find the Grandmother's reason for missing the July 21, 2020
hearing credible. When questioned by the Court as to his client's whereabouts, the

App. 52

Grandmother's former counsel, J. Mingo Winters, did not offer good cause for her
failure to appear. Furthermore, the Grandmother admits in her motion that she was
aware of the hearing date.

It is not the Court's responsibility to ensure that

Grandmother attended the hearing either in person or by telephone.
24.

Accordingly, no good cause exists to grant the Grandmother's motion and the
Court hereby DENIES all relief requested by the Grandmother.

25.

Lastly, the Grandmother moves this Court to stay these proceeding pursuant to
Rule 50 of the West Virginia Rules of Procedure for Abuse and Neglect and Rule 2
of the West Virginia Rules of Appellate Procedure.

26.

It is well established that once a petition for appeal has been filed, Rule 50 does

not automatically stay the proceedings. The circuit court may grant a stay upon a
showing of good cause.

As discussed above, the Court does not find the

Grandmother's explanation on why she failed to appear at the hearing credible.
Furthermore, Rule 50 contemplates that a motion for a stay follows a petition for
appeal and no petition or notice was filed in this case.
27.

Accordingly, Court declines the relief sought in this matter because it is clearly not
in the child's best interests or wishes.

28.

As such, the Court DENIES the motion to stay these proceedings.

/s/ Stm>hen 0. Callaghan
Circuit Court Judge
28th Judicial Circuit

Note: The electronic signature on this order can be verified using the reference code that appears in the
upper-left corner of the first page. Visit www.courtswv.gov/e-file/ for more details.

App. 53

West Virginia E-Filing Notice

CC-34-2017-JA-130
Judge: Stephen 0. Callaghan

To:

Christian John Riddell
stedmanriddell@gmail.com

NOTICE OF FILING
IN THE CIRCUIT COURT OF NICHOLAS COUNTY, WEST VIRGINIA
IN THE INTEREST OF: JAKEIRR STRAYHORN
CC-34-2017-JA-130
The following order - case was FILED on 11/13/2020 3:32:27 PM

Notice Date:

11/13/2020 3:32:27 PM
Debbie Facemire
CLERK OF THE CIRCUIT
Nicholas
700 Main Street, Suite 5
SUMMERSVILLE, WV 26651
(304) 872-7810
DeborahR.Facemire@courtswv.gov

App. 54

